Before the Committee on Transportation and Infrastructure
Railroads Subcommittee
United States House of Representatives


 For Release on Delivery
 Expected at
 10:30 a.m. EST
                           Reauthorization of
                           Intercity Passenger
 Wednesday
 September 21, 2005
 CC-2005-070

                           Rail and Amtrak


                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today on Amtrak reform proposals.
Intercity passenger rail service is an important component of a balanced
transportation system in this country, but improvements are needed in how
passenger rail service is delivered. In particular, a new model is needed that
addresses matters such as who decides on the type and amount of service, who
provides service, and who selects the providers. In our opinion, refocusing on
these issues will promote greater efficiency, reliability, and cost-effectiveness in
the delivery of passenger rail transportation, while continuing to provide essential
mobility.

We have testified numerous times since Amtrak’s authorization expired in 2002
that the current model is broken. Amtrak continues to incur unsustainably large
operating losses, provide poor on-time performance, and bear increasing levels of
deferred infrastructure and fleet investment on its system. While Amtrak’s most
recent cash flow analysis forecasts higher cash on hand by the end of the fiscal
year, the improvement results from delays in capital expenditures rather than
improved operations. Projected year-end cash on hand of $121 million amounts
to only 4 ½ weeks of Amtrak’s average cash requirements, leaving Amtrak’s
stability at risk.

To turn this situation around, a comprehensive reauthorization that provides new
direction and adequate funding is needed and is needed in this Congress.
Continued ad hoc direction through the appropriations process is not an adequate
substitute for reauthorization. The problem with the current model extends
beyond funding: there are inadequate incentives for Amtrak to provide cost-
effective service; state-of-good-repair needs are not being adequately addressed;
and states have insufficient leverage in determining service delivery options, in
part because Amtrak receives Federal rail funds, not the states.

A number of proposals introduced in this Congress take varying approaches to
improving the delivery of passenger rail services throughout the nation. They
reflect common goals of improving cost-efficiency, reducing Federal subsidy
costs, and providing long-term funding stability and needed capital improvement.
These include recent proposals from both the Senate and House and from industry
stakeholders. The different approaches to reforms and restructuring of intercity
passenger rail service goals reflect the needs of a diverse constituency, which
include states that want improved corridor services and states with limited mode
choices that see long distance service as meeting basic mobility needs. Reaching a
balance between these divergent needs and the costs of providing service is the
challenge reauthorization faces.



                                                                                  1
Reauthorization should focus on improving mobility in corridors (routes less than
500 miles) around the country—not just in the Northeast Corridor—and in
restructuring long-distance services (routes greater than 500 miles) to complement
corridor services. 1 This will require new relationships and new partnerships
among the Federal Government, the states, Amtrak, and the freight railroads. It
will involve giving states much greater authority and control over intercity
passenger rail decisions. And, in order for this to work, a considerably more
robust Federal funding program for capital, with a reasonable state match, will be
required, along with additional state contributions.

Reauthorization should establish meaningful reforms that ensure greater cost-
effectiveness, responsiveness, and reliability in the delivery of passenger rail
transportation. There are three central themes that will drive successful reform:

      • Improvements in Cost-Effectiveness. Amtrak, as the sole provider of
        intercity passenger rail service has few incentives, other than the threat of
        budget cuts or elimination, for cost control or delivery of services in a cost-
        effective way. Amtrak has not achieved significant costs savings since its
        last reauthorization. In fact, operating losses have risen from $797 million
        in FY 1997 to $1.3 billion in FY 2004. Cash losses have merely kept pace
        with inflation, rising an average 2.1 percent per year. In short, there has
        been little or no efficiency gain.

          Funding these losses leads to the bigger question of whether or not Federal
          dollars for intercity passenger rail are being used as efficiently, and as
          wisely, as possible. In our recent analysis of Amtrak’s long-distance
          services, our goal was to determine whether cost savings could be had
          without eliminating any routes, station stops, or frequencies. We found that
          on one route, the Sunset Limited, the loss in providing first class service
          (including interest and depreciation) exceeded $600 per passenger. On
          most routes, the loss per first class passenger was more than double that per
          coach passenger. Exploring further, we found that eliminating first class
          service, dining cars and other amenities, and finding cost-effective options
          for food service, could reduce net operating losses on the long-distance
          routes by $75 million to $158 million per year. In addition, an average of
          $79 million in planned capital expenditures over each of the next 5 years
          could be avoided.

1
    Of Amtrak’s 25 million riders in FY04, 11.3 million (45 percent) rode on the Northeast
    Corridor, 9.8 million (39 percent) rode on other corridor routes, and 3.9 million (15.5 percent)
    rode on long-distance routes. The average distance traveled by long-distance route riders was
    less than 700 miles; only .5 million rode a long-distance route end-to-end.



                                                                                                  2
         In short, we found opportunities for substantial reductions in net losses on
         the long-distance routes. While our analysis is not intended to prescribe a
         one-size-fits-all solution for long-distance routes, it does indicate potential
         areas for substantial savings. When we issued our report 2 , the Amtrak
         Board of Directors indicated that it intended to pursue some pilot projects
         along the lines suggested in the report. As of this writing, we are still
         waiting to hear of such action.

     • States Need a Larger Voice in Determining Service Requirements. The
       current model for providing intercity passenger service does put states in a
       position to decide upon the best mix of service for their needs – what cities
       are served, schedules and frequency of service, and what amenities should
       be provided. Those decisions are made by Amtrak, and they are not always
       in the best interests of the states served. Intercity passenger rail would be
       better served with state-led initiatives as to where and how intercity
       passenger rail service is developed. States are in the appropriate position to
       determine the level of passenger rail service required to meet their strategic
       transportation needs and state sponsorship will become increasingly
       important as they will be asked to provide increased operating and
       investment support. Capital funding decisions, as with mass transit, should
       ultimately reside with the Department of Transportation, based on
       congressional direction and in partnership with the states.

     • Adequate and Stable Federal Funding is Essential.              None of the
       corridors around the country, including the Northeast Corridor (NEC), can
       provide the type of mobility needed without significant up-front
       investment. In the NEC this means bringing the existing facilities to a
       state-of-good-repair with no match requirement. In other corridors around
       the country it means creating the infrastructure for high-frequency services
       in partnership with freight railroads and commuter authorities. A robust
       Federal program of capital matching grants will be essential if these
       corridors are to be developed. In addition, long-distance services that
       provide connections between corridors require recapitalization if they are to
       be run efficiently and are to provide the high quality services their
       passengers deserve. None of this, however, implies giving more money
       directly to Amtrak, especially under the current model.




2
    OIG Report Number CR-2005-068, “Analysis of Cost Savings on Amtrak’s Long-Distance
    Services, July 22, 2005. OIG report can be accessed on our website: www.oig.gov.



                                                                                         3
A number of other issues that have proven contentious in the past must also be
addressed such as what to do about Amtrak’s legacy debt, its governance, and its
assets, including management and ownership of the NEC.

A range of reauthorization proposals have been introduced in this Congress to
address these issues, though each to different degrees and each in somewhat
different ways. Some recognize the need for greater competition. From our
standpoint we are not in a position to say how much, if any, competition might
materialize. However, we recognize there needs to be a level playing field to
promote competition, and consideration must be given as well to the legitimate
interests of the freight railroads who own the rail infrastructure outside the
Northeast Corridor. In our view it is unlikely that competition can become a
viable option until the passenger rail system is restored to a state-of-good-repair.

Some proposals suggest shifting governance from Amtrak to either the Federal
government or the states or both, while others leave Amtrak as the sole provider.
Some proposals look to a mixed governance framework depending on whether it is
Northeast Corridor services, other corridor services, or long distance trains. In
most cases there is greater state involvement. All proposals for reform seek to
restore the system to a state-of-good-repair and recognize a state-initiated need to
invest in improved corridor rail services.

In testimony earlier this year, we presented a framework for reauthorization that
incorporates these themes. Specifically, we identified six core elements to
consider.

 1. Formula Grants to States for Capital and Operating Costs. This program
     would address the needs of areas served by long-distance routes that have
     little corridor development potential, while simultaneously creating
     incentives for states to encourage operating efficiencies from the service
     operator. Formula funds can be used for operating expenses, capital
     maintenance, and/or capital improvements at the discretion of the states and
     have no match requirement.

 2. Restoration of the Current System to a State-of-Good-Repair.              This
     program would provide Federal funds, with no match required, to address the
     accumulated backlog of deferred investment and maintenance on the
     Northeast Corridor and in fleet and facilities outside the Northeast Corridor.
     After a state-of-good-repair has been achieved, capital funds with a
     reasonable state match would be available for capital maintenance.




                                                                                  4
 3. Capital Matching Grants to States for Development of Corridor
     Services. This program would give states the ability to improve and expand
     routes and service on their supported corridor routes through a Federal capital
     funding program with a reasonable state match requirement.

 4. Resolution of the Legacy Debt Issue. This element would give the
     Secretary the authority to evaluate Amtrak’s debt and to take action in the
     best interest of intercity passenger rail that is economically advantageous to
     the United States Government.

 5. Setting Federal and State Funding of These Programs at Adequate
     Levels. Federal funding levels, along with state contributions have not been
     sufficient to subsidize operations, address deferred capital needs, and
     significantly improve service along the existing rail network. In the last
     2 years, Amtrak has received annual Federal funding of $1.2 billion and an
     additional $250 million in state funding. In effect, Amtrak received about
     $1.45 billion in public funds. It will require minimum Federal funding of
     $2.0 billion a year to restore the system to a state-of-good-repair and provide
     funding for new corridor development.

 6. Resolution of Northeast Corridor Ownership. The Northeast Corridor is
     of considerable interest in reauthorization. Unlike the rest of the passenger
     rail system, Amtrak owns the infrastructure between Boston and Washington,
     D.C. It will require at least $4 billion to restore the corridor to a state-of-
     good-repair. The Federal Government may decide to take on the
     responsibility of restoring the NEC to a state-of-good-repair, and its debt–if it
     is determined to be in the public’s interest to do so. Once the NEC is
     returned to a state-of-good-repair, the states can take a larger responsibility in
     directing and managing ongoing operations and maintenance. In return for
     fully funding the corridor, the Federal Government may decide to take title to
     Amtrak’s assets. Although Amtrak may very likely remain the operator for
     NEC, we will be in a better position to decide what is the best use and
     ownership structure of NEC assets by the end of the reauthorization period.

This framework would require cost efficiencies as Federal funds available to cover
operating losses would decline over the 5-year reauthorization period.
Specifically, it would give states greater responsibility for passenger rail
investments with oversight of capital investment vested in the Department.
Additionally, it would focus Federal funding on stable and robust capital
investment programs that would bring the system to a state-of-good-repair,
maintain it in that condition, and provide for the development of corridors
throughout the country.



                                                                                     5
We have followed the issues in intercity passenger rail, and testified about them,
for many years. During that time, we have seen a continuous decline in the
intercity passenger rail system. We are glad to see the emergence of multiple
proposals for reform. We want the subcommittee to know that we are willing to
work with the relevant committees and constituents to secure a solution that would
strengthen the delivery of intercity passenger rail in this country.

The Current Model Is Broken
Amtrak has been tasked to be all things to all people, under a model that provides
little incentive for cost-effectiveness, reliability, or responsiveness. The current
model provides little balance between the national goals of an integrated network
and regional and state transportation needs. How much funding and who provides
the funding—Federal, state, or a combination— continually remain critical
questions to be addressed.

The current model for providing intercity passenger service has resulted in
financial instability and declining service quality. Despite multiple efforts over
the years to change Amtrak’s structure and funding, we have a system that limps
along, never in a state-of-good-repair, awash in debt, and perpetually on the edge
of collapse. For example:
                                                                            Operating and Cash Losses
                                                                             FY 1997 through FY 2004
• The system continues to suffer                      $1,600
  operating losses (excluding                         $1,400                                                                                  $1,338
                                                                                                                                   $1,293
  depreciation and interest) on all                   $1,200
                                                                                                               $1,271
                                                                                                                          $1,149

  but a handful of routes. On                         $1,000                              $916       $944
                                       ($millions)




  some      long-distance    trains                    $800
                                                                   $797
                                                                             $860
                                                                                                                   $770
                                                                                                                                       $644
  operating losses exceed $400                         $600          $549          $561     $579
                                                                                                       $561
                                                                                                                              $631                   $635


  per passenger. Through July,                         $400

  FY 2005 operating losses on                          $200

  long-distance     trains    were                       $0
                                                                   1997       1998        1999       2000        2001      2002       2003      2004
  11 percent higher than in the
                                                                          Operating Loss                    Cash Loss                Interest
  same period a year ago.
                                                                           Amtrak's Short- and Long-term Debt

• Amtrak’s debt grew from                                                       FY 1997 through FY 2004

  $1.7 billion in FY 1997 to                              5,000                                                $4,628 $4,826
                                                                                                                             $4,817         $4,637

  $4.6 billion in FY 2004. While                          4,000                                       $3,577

  debt levels have declined                               3,000
                                       ($ millions)




                                                                                            $2,449
                                                                                   $2,157
  slightly in the past few years,                         2,000
                                                                          $1,737

  Amtrak’s annual debt service                            1,000
  payments       will    approach                              -
  $300 million for the foreseeable                                        1997 1998         1999      2000 2001         2002       2003 2004

  future.                                                                     Long-Term Debt                       Short-Term Debt




                                                                                                                                                      6
• Although ridership increased to                               Trends in Passenger Revenue and Ridership
                                                                         FY 1993 through FY 2004
  25.1 million in FY 2004,                                    $1,600                                                         26

  passenger     revenues    were                              $1,400                                                         25

  $1,304 million,    below    the




                                                                                                                                   Ridership (millions)
                                                              $1,200                                                         24




                                        Revenue ($millions)
  $1,341 million achieved in                                  $1,000                                                         23


  2002. Through July, FY 2005                                  $800                                                          22


  passenger     revenues    were                               $600                                                          21

                                                               $400                                                          20
  $24 million lower than in the
                                                               $200                                                          19
  same period in FY 2004.                                        $0
                                                                                                   Revenue      Ridership
                                                                                                                            18
                                                                  1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004




• Amtrak has an estimated $5 billion backlog of state-of-good-repair
  investments, and underinvestment is becoming increasingly visible in its
  effects on service quality and reliability. Deferred capital investment has led to
  several system failures in recent years and no one knows where or when a
  critical failure will occur. Continued deferral of needed investment increases
  the risk that it may not be too far away.

• On-time performance continues                                     Amtrak Systemwide On-Time Performance
  to deteriorate.     It fell from                                         FY 1997 through FY 2004
  77 percent in FY 2002 to                                    80%              79%    79%
                                                                                             78%
  71 percent in FY 2004, with                                 78%                                             77%

  Amtrak’s premier service–                                   76%                                     75%

  Acela Express–achieving on-                                           74%                                           74%
                                              Percent




                                                              74%

  time performance of only                                    72%                                                            71%

  74 percent. On-time perform-                                70%

  ance for long-distance trains                               68%

  averaged less than 50 percent.                              66%
                                                                       1997   1998   1999   2000    2001     2002   2003    2004
  Through July 2005, system-
  wide     on-time     performance
  slipped further to 70 percent.

Options for Providing Long-Distance Service
Tension surrounds long-distance service in particular because, although it provides
essential services, it requires heavy subsidies to do so. In 2004, long-distance
trains cumulatively incurred operating losses (excluding interest and depreciation)
of more than $600 million. Eliminating long-distance service would not only




                                                                                                                                   7
ignore mobility needs of rural areas of the country, but would reduce operating
losses associated with long-distance trains by only about half (or $300 million). 3

In our recent analysis of Amtrak’s long-distance services, we determined that cost
savings could be achieved without eliminating any routes, station stops, or
frequencies. First, we found that the losses per passenger associated with first class
passengers were substantially higher, and on most routes more than double the
losses associated with coach passengers. In effect, the 16 percent of passengers
traveling first class accounted for about 26 percent of the operating losses on these
routes.

Second, we found that eliminating first class service, dining cars, and other
amenities, and finding cost-effective options for food service could reduce net
operating losses by about $75 million to $158 million per year. 4 Options for
reducing losses on food service through initiatives or prototype test projects on
several long distance routes could include raising food prices, outsourcing, having
passengers obtain meals in stations during regular stops, distributed box meals that
have been prepared off the train, selling packaged food from carts on the trains, or
redesigning the lounge cars so that they generate sufficient revenues to offset
costs. In addition, an average of $79 million in planned capital expenditures could
be avoided over each of the next 5 years.

Clearly what makes sense with respect to implementing major service changes
needs to be determined on a route-by-route basis. Our analysis was not intended to
provide a one-size-fits-all prescription for the long-distance routes, but to suggest
areas of possible cost savings and indications of their potential magnitude. At a
minimum, our analysis indicates that there are more cost-effective alternatives for
providing long-distance service.

A Framework for Reauthorization
Congress and the Administration have difficult decisions to make in determining
the appropriate level and structure of funding for intercity passenger rail. We have
developed a framework for assessing those decisions. We recognize that many
assumptions need to be made about who pays for what and how to balance
national, regional, and state transportation needs. Those are decisions for

3
    Because long-distance trains share stations and facilities with corridor trains, eliminating the
    long-distance trains would not eliminate the shared costs. In addition, Amtrak allocates a share
    of overhead and infrastructure maintenance to the long-distance trains—some of these costs
    will be reallocated to all remaining trains.
4
    This range depends on the assumption made regarding the variability of maintenance-related
    labor. At the low end, we have assumed that all maintenance-related labor is fixed; at the other
    end, we have assumed that all such labor is variable.


                                                                                                  8
Congress and the Administration to make. Our framework can serve as a
strawman for further debate. It includes the following components.

  y Formula Grants With No Match Required. This approach provides
     funds to states outside the Northeast Corridor that do not have corridor
     development potential and that rely on long-distance trains for substantially
     all intercity passenger rail service. There are at least 16 states with only
     long-distance service and little potential for any corridor development. We
     have not taken a position on the ultimate question of whether long-distance
     service should be retained or eliminated but merely presenting it as an
     approach for funding states that do not have the population densities to
     support corridor development.

     This approach could initially include sufficient funds to subsidize existing
     long-distance and corridor services. Over the reauthorization period the
     funds associated with corridor services would be reduced and then
     eliminated at the end of the period. Further, the level of Federal funds
     subsidizing the long-distance services would be reduced to reflect greater
     operating efficiencies resulting from capital investments as well as other
     savings resulting from food and beverage service changes, improved labor
     productivity, and efficiencies that may be introduced by competitive service
     providers.

     As determined by the states, funds could be used to defray the cost of
     operating subsidies, capital investment, or both, with no match required.
     The amount of the formula grant could be calculated on the basis of
     Amtrak’s FY 2005 operating loss allocable per embarking/disembarking
     passengers in the affected state or some other formula that provides an
     equitable allocation.

  y Restore System to a State-of-Good-Repair. The funding needs to restore
     the system to a state-of-good-repair reflect the accumulated deferral of
     investments which has resulted in an estimated $5 billion backlog of capital
     projects for the system as a whole, threatening current and future service
     reliability. The Northeast Corridor presents the most difficult challenge for
     this program and the effects of its deteriorating infrastructure are readily
     evident. Amtrak’s reported on-time performance in the Northeast Corridor
     as a whole between 1994 and 2003 ranged from 82 to 88 percent. For
     FY 2004, even Amtrak’s premiere Acela service posted an on-time
     performance of only 74 percent, far short of Amtrak’s stated goal of
     94 percent. If the decision were made to keep the current Northeast
     Corridor intact, we estimate Amtrak would need to spend at least
     $550 million annually for an extended period on infrastructure and rolling


                                                                                9
      stock to eliminate the backlog of capital investment in the Northeast
      Corridor.

      Bringing the eight Northeast Corridor states and the District of Columbia
      together in a short period of time to direct and manage this effort would be
      incredibly complex but may be achievable by the end of the reauthorization
      period. Recognizing this challenge, one option during the reauthorization
      period could be for the Federal Government through a separate
      Departmental capital grant program to fully fund the Northeast Corridor’s
      capital requirements until a state-of-good-repair is achieved. This would
      also address the states’ reluctance to inherit a legacy system they did not
      create.

   y Capital Grants With a Reasonable Match. Like other proposals, this
      approach would provide capital grants on a competitively determined basis
      and would be administered by the Department. States that desire to
      improve existing intercity rail service and/or develop new corridor services
      would apply to the Department for a matching grant, similar to the Federal
      Transit Administration’s New Starts Capital Program.                    The
      Administration’s proposal also suggests such a program but provides a
      50/50 capital match rate by the end of the reauthorization period. Our view
      is that a lower state match rate requirement would provide incentives for
      states to take an “ownership” role in developing rail corridors on a more
      competitive basis with other transportation modes (historically, highways
      and transit have used an 80/20 match rate).

      To accommodate the need for different types of capital investments, two
      types of capital matches could be established. For investments that qualify
      as traditional capital investment, such as track or purchases of passenger
      equipment, the Federal share could go up to 80 or 85 percent. On the other
      hand, for investments that qualify as capital maintenance, such as those
      under the transit definition the Federal share might be 70 or 75 percent.

In attaching dollar figures to this construct, we made several assumptions for
purposes of illustration as follows.

   – Formula grants will not fully cover train operating losses.    Amtrak’s
      forecast net cash operating needs (excluding interest) were used as the
      starting point. The levels of funding represent imputed cost savings of
      10 percent per year from a combination of revenue growth and operating
      cost savings.




                                                                               10
   – Over the 5-year reauthorization period, Federal subsidies decline for long-
       distance trains and corridor operating subsidies shift to the states. We
       expect states to place higher performance and efficiency demands on the
       service provider to lower operating costs to more affordable levels.

   – Debt service is based on Amtrak’s projected debt service payments through
       FY 2009, adjusted for installment payments on their RRIF loan and
       possible early buyout options on leased equipment.

   – Capital requirements to restore the system to a state-of-good-repair are
       based on Amtrak’s Strategic Plan for FY 2005 through FY 2009 and on
       assumptions we made on allocating capital needs between the Northeast
       Corridor and the rest of the system. The funding allocation assumes a
       capital need of $550 million for infrastructure and fleet in the Northeast
       Corridor and $250 million for infrastructure and fleet outside the Northeast
       Corridor (NEC).

   – Funds available for capital match represent funds remaining after state-of-
       good-repair funding requirements, formula grants, and debt service are met.

                        Construct for Reauthorization Funding
                                    ($ in Millions)
                                                  FY       FY       FY       FY       FY       FY
Federal Contributions
                                                 2005     2006     2007     2008     2009     2010
Formula Grants (Capital and/or Operating
Subsidy)                                         $570     $570     $510     $460     $410     $370
Debt Service                                      276      278      358      306      308     375
Capital to Restore System State-of-Good-Repair    355      655      755      800      800      800
NEC Infrastructure + Fleet                         300      525      550      550      550      550
Non-NEC Infrastructure + Fleet                      55      130      205      250      250      250
Subtotal                                         $1,201   $1,503   $1,623   $1,566   $1,518   $1,545
Available Capital for Match                                         27       234      432      455
Total Federal Contributions                      $1,201   $1,503   $1,650   $1,800   $1,950   $2,000


New Federal capital available for state match does not become available until
annual Federal funding levels reach $1.65 billion. This construct highlights the
policy choice that needs to be made between restoring the system to a state-of-
good-repair and investment in new corridor development. At $2 billion, we would
expect about $455 million to be available to states to match for use in new and/or
improved corridor development.

Mr. Chairman, that concludes my statement. I would be happy to answer any
questions at this time.


                                                                                              11
